<html>
<title> - MISCELLANEOUS NATIONAL PARK BILLS</title>
<body><pre>[Senate Hearing 107-453]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-453
 
                   MISCELLANEOUS NATIONAL PARK BILLS
=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 202               H.R. 1456
                           S. 1051              H.R. 2234
                           S. 1061              H.R. 2238
                           S. 1649              H.R. 2440
                           S. 1894
                               __________

                           FEBRUARY 14, 2002








                       Printed for the use of the
               Committee on Energy and Natural Resources


                    U.S. GOVERNMENT PRINTING OFFICE
79-714                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

                          John Watts, Counsel
                     Nancie Ames, Bevinetto Fellow

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee









                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bowling, Karla Lutz, Executive Director, Bell County Chamber of 
  Commerce, Middleboro, KY.......................................     6
Cantwell, Hon. Maria, U.S. Senator from Washington...............     1
Graham, Hon. Bob, U.S. Senator from Florida......................     5
Jones, Durand, Deputy Director, National Park Service, Department 
  of the Interior, on:
    S. 202 and H.R. 2440.........................................    12
    H.R. 1456 and S. 1051........................................    13
    S. 1061 and H.R. 2238........................................    14
    S. 1649......................................................    16
    S. 1894......................................................    17
    H.R. 2234....................................................    18
Jones, Terrence D., President and CEO, Wolf Trap Foundation for 
  the Performing Arts............................................    10
McConnell, Hon. Mitch, U.S. Senator from Kentucky................     5
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     6
Warner, Hon. John, U.S. Senator from Virginia....................     8

 
                   MISCELLANEOUS NATIONAL PARK BILLS

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Maria 
Cantwell presiding.

  OPENING STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Cantwell. The Subcommittee on National Parks of the 
Committee on Energy and Natural Resources will come to order.
    Senator Akaka is not able to be here this afternoon. He 
asked me to convey his apologies and to let you know that he 
will be submitting his questions in writing so that we can 
include all the questions and answers in the hearing record. 
Senator McConnell also wanted to be here to introduce one of 
our witnesses, but he is unable to attend, and he is going to 
submit a statement for the record as well.
    The purpose of this afternoon's hearing is to receive 
testimony on the following park bills which are pending before 
the National Parks Subcommittee: S. 202 and H.R. 2440, to 
rename Wolf Trap Farm Park in Virginia as Wolf Trap National 
Park for the Performing Arts, S. 1051 and H.R. 1456, to expand 
the boundary of the Booker T. Washington National Monument, 
also in Virginia, S. 1061 and H.R. 2238 to authorize the 
Secretary of the Interior to acquire Fern Lake and the 
surrounding watershed in the States of Kentucky and Tennessee 
for addition to Cumberland Gap National Historic Park, S. 1649, 
a bill to increase the authorization of appropriations for the 
Vancouver National Historic Reserve, and for the preservation 
of Vancouver Barracks in Washington State, S. 1894, to direct 
the Secretary of the Interior to conduct a special resource 
study to determine the national significance of the Miami 
Circle Site in the State of Florida, as well as the suitability 
and feasibility of its inclusion in the national park system as 
part of the Biscayne National Park, and H.R. 2234, to revise 
the boundary of the Tumacockary National Historic Park in the 
State of Arizona.
    I would like to briefly discuss S. 1649, which increases 
the authorization of appropriations of the Vancouver National 
Historic Site. First, I would like to address the fact that 
this legislation would authorize additional Federal support for 
the continued establishment of the Vancouver National Historic 
Reserve and preservation of the Vancouver Barracks. This 
legislation I introduced because I believe we have a tremendous 
historic preservation opportunity at our fingertips in 
Vancouver, one that could be lost if we do not act quickly.
    The National Historic Reserve of Vancouver is one of the 
richest and most culturally significant historic sites in the 
Pacific Northwest. Before the arrival of American traders and 
well before the Lewis and Clark expedition the area where the 
reserve now sits, on the shore of the Columbia River, was home 
to Indian tribes for over 10,000 years. The site ultimately 
became the center of the Western fur trade, a headquarters for 
both the Hudson Bay Company and a key strategic location for 
the U.S. Army, which has maintained a continuous 150-year 
presence at the site.
    I do want to make clear that we have in the midst of our 
major metropolitan area, minutes from the I-5 corridor, a 
valuable treasure for understanding the Euro-American 
indigenous culture in Western history. This legislation, which 
will increase the authorization for Federal spending to 
rehabilitate the Vancouver Barracks is in need because of the 
pending transfer in ownership of the barracks. That conveyance 
was authorized by Congress and is nearly complete.
    The transfer of the barracks was anticipated in 1990 
legislation establishing the historic reserve,and was assumed 
in cooperative management plan signed by all of the partners 
involved in the reserve, including the Park Service. However, 
the availability of that resource, the barracks, was not 
anticipated in the establishment of the original act 
authorization level of $5 million for capital improvements.
    The conveyance of a large portion of the barracks by the 
U.S. Army to the city of Vancouver has created a tremendous 
opportunity for all of us to preserve the facilities for public 
use and education, but also accelerated the need for capital. 
Since 1985, more than $30 million have been invested in making 
improvements to the properties in the reserve, with most of 
those funds contributed by non-Federal partners. The Park 
Service has been a strong partner for more than 50 years in 
these projects. The Service has worked hard as a lead partner 
in cooperative partnership to preserve and interpret other 
components of the reserves, including the barracks, and the 
Service's expertise and commitment to historic preservation are 
invaluable to preserve this effort, but we need to act now to 
prevent further structural deterioration of the barracks and 
buildings to maximize their value as an educational and 
interpretive resource.
    Authorizing continued Federal improvement in this project 
is critical to preserving all these structures and making the 
whole reserve a valued asset. While the nonprofit Vancouver 
Historical Trust plans to obtain more than 60 percent of the 
funding for these rehabilitation efforts from non-Federal 
sources, the Federal Government has a clear role and vital 
interest in maintaining these resources.
    I look forward to working with my colleagues on this 
committee to ensure that we acknowledge the rich history of the 
Vancouver Historic Reserve, and obviously, Mr. Jones, I look 
forward to hearing your testimony today, but before we call on 
our three panelists, I am going to turn it over to Senator 
Thomas for any comments that he might like to make in the 
opening statement.
    [The prepared statements of Senators Cantwell, Graham and 
McConnell follow:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Mr. Chairman. I want to thank our witnesses for coming 
today to offer additional views on these proposals and look forward to 
hearing your testimony, particularly on legislation to authorize 
additional work at the Vancouver National Historic Reserve.
    I'd like to take a moment to explain the importance of that 
legislation, Mr. Chairman. I introduced this legislation to continue 
federal participation in the historic preservation efforts of one of 
the most historically significant sites in the Pacific Northwest, the 
Fort Vancouver National Historic Reserve.
    The Historic Reserve is rich in cultural and historic national 
significance, pre-dating the arrival of Lewis and Clark through the 
mid-20th century. Before the arrival of the American traders and well 
before the Lewis and Clark expedition arrived, this site on the shore 
of the Columbia River was a home to numerous Indian tribes for over 
10,000 years, including the Cascades, Chehalis, Chinook, Clallam, 
Cowlitz, Klickitat, Nisqually, Tillamook, and Shasta tribes.
    Located on the great American waterway, the plains now designated 
as the Vancouver National Historic Reserve was a center for Indian 
commerce, and ultimately became the center of the western fur trade the 
Columbia River. Eventually it became the base of Columbia region 
operations for the Hudson's Bay Trading Company in the early 19th 
century. As my colleagues know, Hudson's Bay was the powerful British 
fur trading company that vied for control of the trapping industry in 
Western lands of the present-day United States, even before political 
control of those lands were established. At its peak, the company built 
an enormous network through the region, with Fort Vancouver as the 
administrative headquarters and supply depot for the hundreds of 
employees at dozens of posts in the region.
    Fort Vancouver became a trade center for the Western territories, 
with goods arriving frequently from Europe and the Hawaiian Islands and 
large quantities of furs and other natural resource products returned 
to London. The Fort came to serve as a hub for numerous other 
developing industries, including sawmills, dairies, shipbuilders, 
fishers and tanneries. In essence, Fort Vancouver truly served as a 
historic seed for the development of the entire Pacific Northwest 
region.
    But the history of the trapping industry is not the only 
significant aspect of this site. The Fort also served as the 
Northwest's military administrative headquarters beginning in 1849. The 
United States Army continuously occupied the Vancouver Barracks at the 
historic reserve site for 150 years, and the names of the officers who 
served there are evidence of its value: Ulysses S. Grant, Benjamin 
Bonneville, Phillip Sheridan, George McClellan, Oliver Otis Howard, and 
of course, George C. Marshall.
    In the late nineteenth century, the Vancouver Barracks served as 
the headquarters for General Howard's campaign against the Nez Perce 
and other Northwest Indian tribes in the late 1870's. Today, annual 
reconciliation ceremonies are held at the Reserve to commemorate the 
resolution of those conflicts. In the 1920s, the Army created a small 
airfield for the Army Air Corps, which is now the site of the oldest 
operating airfield in the nation--Pearson Airfield. In the 1930s, the 
Fort was used as a training camp for those participating in the 
Civilian Conservation Corps' reforestation program.
    Thanks to the wisdom, perspective on history, and foresight of 
numerous individuals including Representative Russell Mack, the 
esteemed chairwoman of the House Interior Appropriations Subcommittee, 
Julia Butler Hansen, Congressman Don Bonker, and Congresswoman Jolene 
Unsoeld, among many others, the tremendous resources of the site have 
been protected for future generations.
    President Truman signed legislation in 1948 that first authorized 
the Fort Vancouver National Monument. The act allowed the War Assets 
Administration to transfer surplus property in Vancouver Barracks to 
the secretary of the Interior. On June 30, 1954, the National Monument 
was officially established and the nearly 60 acres of the Vancouver 
Barracks were transferred to the National Park Service. Finally, the 
site was designated as a National Historic Site in 1961.
    In 1996, the expanded, 366-acre Vancouver National Historic Reserve 
was established to protect all of the historically significant 
historical areas within and adjacent to the barracks. The reserve 
includes Fort Vancouver, the Vancouver Barracks, Officers' Row, Pearson 
Field, the Water Resources Education Center, and portions of the 
Columbia River waterfront. The sites comprise an enormously significant 
historic and community resource in Southwest Washington.
    The restoration of the Barracks alone is an enormously important 
project to stimulate the economic revitalization of Vancouver. Last 
year, Congress authorized the transfer of the 16 buildings that 
comprise the West Barracks to the City of Vancouver, and the partners 
involved in this tremendous project have devised a Cooperative 
Management Plan that identifies $40 million in necessary spending to 
replace failing infrastructure and rehabilitate the 16 buildings to the 
Secretary's standards under the National Historic Preservation Act.
    The Partner's Cooperative Management Plan for the Historic Reserve 
calls for the Barracks to be reused primarily for historic 
preservation, education, and other forms of public use. But the 
location of the site near the heart of Vancouver and the potential for 
drawing additional economic activity back to the city, make this 
vitally important for Southwest Washington.
    The public-private partnership plan for the Reserve represents a 
unique cooperative partnership between federal, state, and private 
entities to preserve and restore these invaluable resources for public 
understanding for years to come.
    While we at the federal level have contributed to the project in 
recent years, the state of Washington and the City of Vancouver have 
also committed significant resources, and the Vancouver National 
Historic Reserve Trust has initiated aggressive efforts to raise funds 
quickly.
    This legislation, which will increase the authorization for federal 
spending on rehabilitating the Vancouver Barracks, is desperately 
needed because of the pending transfer in ownership of the Barracks. 
That conveyance was authorized by Congress and should be completed any 
day now.
    The transfer of the barracks was anticipated in the 1990 
legislation establishing the historic reserve--first proposed by my 
distinguished predecessor, Senator Adams and Representative Jolene 
Unsoeld and enacted with legislation introduced by my colleague Senator 
Murray and immediate predecessor, Senator Gorton.
    The transfer was also assumed in the cooperative management plan 
signed by all of the principal partners involved in the reserve, 
including the Park Service. However, the availability of that 
resource--the barracks--was not anticipated in the establishment in the 
original Act's authorization level of five million dollars for capital 
improvements.
    The conveyance of a large portion of the Vancouver Barracks by the 
United States Army to the City of Vancouver has created a tremendous 
opportunity for us to preserve the facilities for public use and 
education, but also accelerated the need for capital.
    Since 1985, more than 30 million dollars have been invested in 
making improvements to the properties in the historic reserve, with 
most of those funds contributed by non-federal partners.
    The Park Service has been a strong partner for more than 50 years 
in these projects, particularly in preserving Fort Vancouver itself and 
the archaeological materials still being recovered from the ground.
    The City has spent more than 10 million dollars purchasing 21 
historic homes on Officers' Row, and rehabilitating the Marshall and 
Howard Houses, which have become tremendous educational program centers 
for the reserve; and has worked tremendously hard to establish the 
reserve as a hub of community activities.
    And the Army has also contributed a great deal to the initial 
assessments and rehabilitation plans for the facilities.
    But we need to act now to prevent further structural deterioration 
of the buildings and to maximize their value as educational and 
interpretive resources.
    One of these buildings is the ``Red Cross Convalescent House'', 
which is designated as an American Treasure. The West Barracks 
buildings also include the original hospital and the barracks 
headquarters.
    Authorizing continued federal involvement in this project is 
critical to preserving all of these structures and for making the 
reserve whole.
    While the non-profit Vancouver National Historic trust plans to 
obtain more than 60 percent of the funding for these rehabilitation 
efforts from non-federal sources, the federal government has a clear 
role and vital interest in maintaining these resources.
    The Park Service has been the lead partner throughout the process 
of establishing and planning for the Reserve. The Service's expertise 
and commitment to historic preservation are invaluable to this 
preservation effort.
    I believe that we must do everything possible to keep this unique 
partnership on track and move ahead with the preservation efforts at 
this site. We must never forget our cultural, political, and economic 
heritage, and our historic resources help educate and remind us of 
those origins.
    I look forward to working with you, Mr. Chairman, Chairman 
Bingaman, and our other colleagues on Committee to move this 
legislation quickly and continue progress on this significant project 
for the Pacific Northwest and our nation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Prepared Statement of Hon. Bob Graham, U.S. Senator From Florida
    Since its discovery in 1998, Miami Circle has proved to be an 
archeological gold mine, filled with 200,000-plus artifacts of 
Florida's past, left by the Tequesta Indians.
    And while it is not known exactly what this area was used for, we 
do know this site is a link to Florida's history that needs to be 
preserved.
    This piece of Miami's heritage is not just part of Florida--it is 
part of America's history, too--Miami Circle is believed to be the only 
cut-in-rock prehistoric structural footprint ever found in eastern 
North America.
    It is and will be a valuable tool in understanding America's 
indigenous peoples, their culture, and their technological prowess.
    In fact, a recent discovery of Tetluesta burial grounds not far 
from the Miami Circle has made the Miami Circle an even more 
significant historical site that is in need of preservation.
    S. 1894 will help to set the preservation process in motion by 
conducting a study as to the feasibility of including the Miami Circle 
into Biscayne National Park.
    This legislation has been endorsed by the Miami Circle Planning 
Group, an 18 member panel appointed by the Florida Secretary of State.
    The Miami Circle could be a trove of information about an ancient 
people we know very little about and should be preserved so that future 
generations may have a better understanding of our past.
                                 ______
                                 
 Prepared Statement of Hon. Mitch McConnell, U.S. Senator From Kentucky
    Mr. Chairman, I want to thank you for holding this hearing today on 
these important National Parks bills. As you may know, I have 
particular interest in Senate bill 1061, the Fern Lake Conservation and 
Recreation Act, and its companion bill in the House, H.R. 2238.
    Mr. Chairman, I introduced this legislation in the Senate last 
session to authorize the National Park Service to purchase Fern Lake 
and the surrounding watershed and to add this property to Cumberland 
Gap National Historic Park. Fern Lake is a pristine natural landmark on 
the Kentucky-Tennessee border and has served as the municipal water 
supply for Middlesboro, Kentucky since the lake was constructed in 
1893.
    My bill would achieve three goals. First, it would preserve Fern 
Lake as a pristine source of clean water for the residents and local 
businesses in Middlesboro. Second, it would enhance the scenic and 
recreational value of the Park. Third, it would spur economic 
development in the region through increased tourism. And, Mr. Chairman, 
like many of the environmental initiatives I have sponsored in 
Kentucky, this bill has a ``willing sellers'' clause that requires the 
consent of the landowner before the federal government purchases any of 
the property at issue.
    Congressman Hal Rogers introduced an identical bill in the House 
last year where it passed by a voice vote on December 5, 2001 (H.R. 
2238). During the House proceedings, the Park Service suggested a few 
technical changes that were agreed to in an amendment prior to passage. 
I would likely support these small changes to my bill so that we can 
move the legislation swiftly through the Senate and send it straight to 
the President's desk.
    Mr. Chairman, later today you will hear from Ms. Karla Bowling, the 
Executive Director of the Chamber of Commerce in Bell County, Kentucky. 
Ms. Bowling and other community leaders in Bell County have embraced 
this project and rallied community support for this conservation 
effort. Ms. Bowling has served the Chamber of Commerce for four years, 
and is a member of numerous other community organizations, including 
the Bell County Industrial Foundation, the Bell County Tourism 
Committee, and the Middlesboro Downtown Association. Given her 
knowledge, expertise and enthusiasm with respect to economic and 
environmental progress in Bell County, you could not ask for a better 
witness, and Kentucky could not have a better representative, to 
testify here today.
    Mr. Chairman, let me just close by saying that this is the very 
type of project that defines what I would call ``consensus 
conservation'': it was identified and advanced at the local level by 
those who best understand the community's needs; it was designed to 
enhance, not inhibit the local economy; and it is mindful of the rights 
of private property owners. Perhaps this consensus conservation 
approach helps explain why this project enjoys such united support from 
citizens, businesses, environmentalists, and Park officials. Even the 
two largest newspapers in my state, hardly political or ideological 
allies of mine, have recognized the mutual benefits that this project 
brings to the entire community.
    Mr. Chairman, I am delighted that your committee has begun the 
process to help protect this natural treasure in my state, and I thank 
you again for the opportunity to make a statement today.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Senator Cantwell. I am pleased 
that you are having the hearing today so that we can move these 
bills along. I really do not have a statement. I have some 
questions on a couple of issues, but I will wait until after we 
hear from the witnesses.
    Senator Cantwell. Well, thank you. We have Mr. Jones, 
Deputy Director of the National Park Service, Department of the 
Interior, Mr. Terrence Jones, president and CEO of Wolf Trap 
Foundation for the Performing Arts, and Ms. Karla Bowling, 
executive director for Bell County Chamber of Commerce, 
Middleboro, Kentucky, so I do not know what order you want to 
start in--if you do not have opening statements--if any of you 
do, maybe we should start there.
    Ms. Bowling. I will be happy to go first.
    Senator Cantwell. Okay.

   STATEMENT OF KARLA LUTZ BOWLING, EXECUTIVE DIRECTOR, BELL 
          COUNTY CHAMBER OF COMMERCE, MID- DLEBORO, KY

    Ms. Bowling. Good afternoon, Senator Cantwell and 
subcommittee members. My name is Karla Bowling. I am the 
executive director of the Bell County Chamber of Commerce. I am 
here to represent the citizens of Middleboro, Kentucky, to lend 
support for S. 1061, authorizing the Secretary of the Interior 
to acquire Fern Lake for the surrounding watershed for addition 
to Cumberland Gap National Historic Park.
    First of all, let me say it is truly an honor to be asked 
to appear before you today in this small yet significant role 
in our democratic process. I appreciate the service you provide 
to the citizens of our country, and especially the unity you 
have shown, which has become a model for the rest of our 
Nation.
    The initiative that brings us here today would accomplish 
several objections and strike a delicate balance in promoting 
the interest of business and economic development while at the 
same time protecting our precious natural resources. Far from 
just helping the citizens of Middlesboro, acquiring Fern Lake 
would benefit the entire region, and I would dare say the 
hundreds of thousands of tourists who visit our part of the 
country each year.
    This piece of legislation would help us to further 
capitalize on the breathtaking beauty of our natural resources 
through tourism initiatives, preserve and protect the 
environment, and increase the economic viability of our people. 
From my perspective as the chamber of commerce director, it 
almost seems too good to be true, but taken piece by piece, it 
is logical and makes great business sense.
    Allow me to briefly address some of these points. About 5 
years ago, the lake and adjacent watershed was auctioned and 
purchased by a local coal company. The company applied for a 
permit to mine the coal on the watershed, but these permits 
were denied, due to the inability to ensure that the water 
supply could be protected.
    It was at this time that the city and park became acutely 
aware of how vulnerable that piece of property was. Protecting 
the integrity of the water as well as the beauty of the 
viewshed from the adjacent park overlook has proven to be a 
daunting task. Acquiring Fern Lake and incorporating it into 
the national park would ensure that the water supply would be 
protected for generations to come.
    Senator McConnell has made great progress in Kentucky to 
bring clean water to rural areas. We must not regress and 
threaten this pristine water source for the more than 20,000 
residents who depend on Fern Lake for their sole supply of 
fresh, clean water. Our land, our people, and our natural 
resources are too precious to leave unprotected.
    Not only is our water supply important to our citizens, but 
it is crucial to the viability of some of our areas largest 
employers. Cumberland Gap Provision Company produces ham 
products and also manufactures Highlander Ice, both with a 
retail base reaching across America. Water purity is imperative 
in the curing, smoking, and packaging processes of their hams 
and ice production. It goes without saying that purity of the 
local water supply greatly affects the taste of all of their 
products. These two companies employ more than 375 people, and 
have recently invested more than $14 million to expand their 
facilities.
    Another company that depends on a quality water supply is 
Middlesboro Coca-Cola Bottling. These companies are significant 
contributors to the local economy and quality of life for our 
citizens. We cannot afford to jeopardize the livelihood of our 
city's largest employers and, most importantly, the families 
that rely on these good-paying jobs.
    Acquisition of Fern Lake also makes sense when addressing 
the need to generated park revenues. Profit from the sale of 
water to the local water utility is approximately $85,000 per 
year. Money could be earmarked to go back into Cumberland Gap 
National Historical Park to be used for trail maintenance, 
facilities upkeep, recreational needs, staffing, and other 
related expenses.
    I would like to turn now to the issue of promoting 
additional recreational opportunities and ecotourism. In the 
fast-paced, stressful world we live in today, many tourists are 
looking for a way to ``get away from it all.'' They are looking 
for a quiet respite from their cares and worries, simple 
vacations, a reconnection with nature, and a return to 
simplicity. More and more, Americans are looking for the kind 
of getaway that the Fern Lake property could provide if 
properly developed. The recreational opportunities from the 
acquisition of Fern Lake are endless, and could all be in 
keeping with the ecologically sound parameters set forth by 
national park guidelines.
    In fact, the lake already functions as a small, private 
fishing and boating club, where a modest pavilion is used for 
various community activities, including weddings, family 
reunions, and picnics. Future plans could include a large 
accommodation for corporate retreats, business and Government 
conferences, a wildlife or water fowl observatory, fitness and 
nature trails, youth camps, scouting, and other functions that 
could be promoted to bring in additional tourism and 
recreational revenues.
    The national park is the third most visited attraction in 
our State. Tourism is the third largest industry in Kentucky, 
bringing in revenues of almost $9 billion annually. Although 
the Nation as a whole is experiencing a decline in tourism as a 
result of the tragic events of September 11, we expect to 
maintain, if not increase our tourism share because of the 
rural nature of tourist destinations in our region. In fact, in 
the past months we have had an influx of visitors, and 
increased requests for tourist information packets from places 
such as Tampa, Atlanta, Cincinnati, New York, New Orleans, 
Nashville, Asheville, and Jacksonville, to name just a few.
    Tourism revenues have the potential to play a significant 
role in the reversal of our economic decline in Appalachia. We 
work extremely well with our national park, and share a similar 
vision of how to promote our heritage and expand tourism.
    In closing, let me make one last point. In your packets and 
on the easel behind me are exquisite photos of the property we 
are discussing today. These give you just a small glimpse of 
the unsurpassed splendor of this region. As you stand at the 
Pinnacle Overlook, at the highest point above the Cumberland 
Gap, you are at 2,440 feet above sea level. Fern Lake and the 
untouched beauty of the mountains surrounding it are an 
integral part of the breathtaking view that lies before you. I 
imagine this is similar to what our ancestors saw as they stood 
in this very spot, hundreds of years ago, on the wilderness 
trail. As far as the eye can see, the pristine beauty of our 
heritage surrounds you. We cannot take the chance of letting 
this precious resource slip through our fingers.
    In the past, we have made mistakes of not protecting our 
environment and the natural beauty it provides to nourish our 
souls. This is a wonderful opportunity. Seldom do we see such 
synergy between economic development, tourism, and the 
preservation of our natural resources. The Bell County Chamber, 
the City of Middlesboro, and the people of our region, 
wholeheartedly support this initiative.
    Thank you for your time.
    Senator Cantwell. Thank you, Ms. Bowling, for your 
testimony and statement on the inclusion of Fern Lake and the 
surrounding areas into the Cumberland Gap National Historic 
Park. Before we turn to the Joneses, I was wondering if we 
could in fact call Senator Warner up to the table with the 
other panelist and have him give comments on S. 202, regarding 
Wolf Trap Park in Virginia, and renaming it to the Wolf Trap 
National Park for the Performing Arts, so Senator Warner.

        STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Madam Chairman, and my friend 
and colleague, Senator Thomas. I would like to ask unanimous 
consent that my statement may be placed into today's record for 
brevity purposes.
    Senator Cantwell. Without objection.
    Senator Warner. I might sound a little prosaic, but this is 
my 24th year in the U.S. Senate, privileged at one time to be 
on this committee, and throughout those 24 years I have worked 
with the Wolf Trap group here in Washington from the very 
inception of this magnificent edifice, and the foundations that 
are associated with it, until today, and this is a fairly 
simple straightforward matter in which the board has given its 
careful attention. We have the distinguished chairman here and 
others. So I shall just put in that I hope my bill is acted 
upon favorably in due course by the committee and the Senate as 
a whole.
    Senator Cantwell. Well, thank you, Senator.
    Senator Warner. The second bill I have before you is the 
Booker T. Washington National Monument, which we in Virginia 
take great pride in having in our State. There is a need to 
protect it from incursions of the ever-present growth of summer 
and other homes in various regions. The foundation, and others, 
have reached a complete understanding to acquire a small piece 
of land, roughly 15 acres. It is a friendly agreement. The 
owner of the 15 acres is anxious to sell it and wants to see 
that it goes to a part of this historic monument, and I would 
hope the committee would look favorably upon that bill.
    I thank the chair and members of the committee.
    [The prepared statement of Senator Warner follows:]
  Prepared Statement of Hon. John W. Warner, U.S. Senate From Virginia
    Thank you Madam Chairman, members of the Committee on Energy and 
Natural Resources. I am here today to urge the committee to favorably 
report out two small, but important bills.
    The first is a bill to rename the Wolf Trap Farm Park for the 
Performing Arts as the ``Wolf Trap National Park for the Performing 
Arts''. The second is a bill which will expand the borders of the 
Booker T. National Washington Monument.
            wolf trap national park for the performing arts
    Wolf Trap is the only unit of the National Park System dedicated to 
the performing arts. It provides an unrivaled setting for live 
performances in the rolling countryside of Virginia outside of 
Washington, D.C.
    This legislation recognizes Wolf Trap's status as one of the crown 
jewels in the National Park System. Including Wolf Trap with the 
already designated National Parks is intended to raise awareness of the 
unique roll this facility plays in the nation's natural, cultural and 
educational life.
    To provide this unique experience, the National Park Service 
collaborates with the Wolf Trap Foundation in a public/private 
partnership to offer cultural, natural, and educational experiences to 
the community and to the nation. The National Park Service maintains 
the grounds and buildings of Wolf Trap Farm Park. The Wolf Trap 
Foundation, a ``501(c)(3)'' not-for-profit organization, creates and 
selects the programming, develops all education programs, handles 
ticket sales, marketing, publicity and public relations, and raises 
funds to support these programs.
    The Park Service has an annual budget of just over $3 million to 
maintain the facility while the Wolf Trap Foundation has an annual 
budget of $22 million, 60% of which is generated through ticket sales 
with the rest raised through private donations.
    Wolf Trap offers a wide variety of educational programs including 
the nationally acclaimed Wolf Trap Institute for Early Learning Through 
the Arts for preschoolers, scholarships and performance opportunities 
for talented high school musicians, pre-performance preview lectures, 
the America's Promise mentoring program, the Mars Millennium project 
partnership with Buzz Aldrin Elementary School, the Folk Masters Study 
Units for teachers who want to incorporate the folk arts into their 
curriculum, a highly competitive internship program for college 
students, and master classes for people with all skill levels and 
interest.
    Wolf Trap has also gained world-wide recognition for its summer 
residency program for young opera singers, the Wolf Trap Opera Company.
    I urge the Committee to join me in recognizing the many 
achievements of Wolf Trap.
                 booker t. washington national monument
    The Booker T. National Washington Monument extraordinary 224 acres 
of rolling hills, woodlands, and agricultural fields preserves near the 
rapidly growing resort area near Smith Mountain Lake in Virginia. The 
monument protects the birth site and childhood home of Booker T. 
Washington. It interprets both his life experiences and significance in 
American history.
    Many of the private landowners now wish to sell some of the 
surrounding farmland, including the 15-acre tract. I believe that in 
order to maintain this very historic area, the Park Service should 
acquire this property so that visitors will be ensured the same 
agricultural setting, which was so crucial to Booker T. Washington's 
life.
    On April 2, 1956 the Monument was authorized by Congress to create 
a ``public national memorial to Booker T. Washington, noted educator 
and apostle of good will . . .'' He is known as the most powerful 
African American of his time. This park provides a focal point for the 
continuing discussions on the context of race in American society, a 
resource for public education, and the continuation of his legacy 
today.
    The large agricultural landscape surrounding the Monument plays a 
critical role in the park's interpretation of Washington's life as an 
enslaved child during the Civil War era. Many of the significant 
experiences he had centered on this small tobacco farm. In this age of 
rapid development, it is remarkable that despite the passage of almost 
a century, the area surrounding the national monument remains 
relatively unchanged since the time of Booker T. Washington's birth.
    As part of the park's strategic plan, a Viewshed study was 
conducted in 1998. It's purpose was to survey the surrounding lands in 
the most highly visited areas of the park and determine what visual 
effects urban development would have on the preservation of this 
historic site. The study identified a 15-acre parcel of land to be the 
most critical addition for this park because of its proximity to Booker 
T. Washington's birth site.
    I urge the committee to join me in preserving this important 
landmark to our Nation's history for all future generations.

    Senator Cantwell. Well, thank you, Senator, for taking time 
out of your busy schedule to come and talk about these two 
important pieces of legislation.
    Senator Warner. It is always good to appear before this 
committee. Thank you very much.
    Senator Cantwell. Thank you.
    Mr. Jones, or Mr. Jones, not to curtail any of your 
comments, but we are expecting a vote shortly, and I know that 
you are commenting on--at least one of you are commenting on 
many pieces of legislation, so some of that you might want to 
submit for the record, but with that I will turn it over to 
you.

 STATEMENT OF TERRENCE D. JONES, PRESIDENT AND CEO, WOLF TRAP 
               FOUNDATION FOR THE PERFORMING ARTS

    Mr. Jones. I will begin. I am president and chief executive 
officer for the Wolf Trap Foundation for the Performing Arts, 
and good afternoon to you, Senator Cantwell and Senator Thomas. 
It is a pleasure to be here, and thank you for inviting me to 
speak today. I also want to thank Senator Warner for his 
support and his presence here today.
    You have before you a request for a name change for Wolf 
Trap which is from Wolf Trap Farm Park for the Performing Arts 
to Wolf Trap National Park for the Performing Arts. This 
request is made with the support of the National Park Service, 
and with the support of the family of our founder, Catherine 
Filene Shouse. This change can make an important difference for 
Wolf Trap.
    As you know, an act of Congress established Wolf Trap Farm 
Park for the Performing Arts in 1966, as a result of a generous 
gift from Catherine Filene Shouse. Mrs. Shouse provided her 
farmlands and funds to construct the first Filene Center, a 
7,000-seat amphitheater where more than a half million people 
attend performances every summer.
    The National Park Service and the Wolf Trap Foundation have 
joint responsibility for the park. Together, we host an average 
of 170 performances every summer, including main stage shows at 
the Filene Center and a 6-week summer series for children in 
the Theater in the Woods. I am sure that many of you have been 
to Wolf Trap and have experienced the magic of the performing 
arts there.
    Concerning funding, we are of like mind with our partners 
in the Park Service. Over the many years of our partnership we 
have developed careful mechanisms for requesting funds and 
recognizing funders. We are meticulously clear in 
distinguishing the projects that are unique to the foundation.
    The proposed name for Wolf Trap accurately reflects our 
role as the Nation's only national park devoted solely to the 
presentation of the performing arts. In this role we have taken 
steps to build a national and international reputation. The 
American public and, more recently, international audiences 
have enjoyed television specials from Wolf Trap from our PBS 
series in the 1980's, featuring such stars as Beverly Sills and 
Victor Borge, through more recent specials, which featured 
artists like Judy Collins, Mary Chapin Carpenter, and the Gipsy 
Kings.
    We are also engaged in an ongoing effort to draw attention 
to our fellow National Park Service units through a program 
that we call Face of America. Each year, we use the performing 
arts to celebrate the beauty and the culture of a different 
national park site or sites. We travel to our partner sites to 
film performing artists at work using high definition video. 
That video is then projected on giant screens at Wolf Trap as 
the performers themselves appear live on the Wolf Trap Center 
Stage.
    In 2000, we presented aerial dance company project 
Bandeloup, and Native American flutists, Robert Mirabal in a 
celebration of Yosemite National Park. Last year, we created a 
rich festival at Wolf Trap to celebrate the Virgin Islands 
National Park, and the Coral Reef National Monument with 
performances by modern dance company Donald Byrd and the Group, 
performing with Steve Turre and the Sanctified Shell, 
storyteller Alice McGill, choreographer Ron Brown, the U.S. 
Olympic Synchronized Swim Team, and the Ollie Paul Original 
Moco Jumbi dancers from the Virgin Islands.
    In addition to featuring other national park sites at Wolf 
Trap, we put Wolf Trap to work for them. Each park receives a 
video, video footage for their visitors center to use after the 
performance. We help our partner parks share their 
environmental and cultural messages by working with them to 
create web adventures on Wolf Trap's web site and features in 
our playbill.
    Finally, we use the education resources of our foundation 
to help our partner parks in their role as good neighbors. Lat 
year, a dancer from our production taught classes to fifth 
graders on the Island of St. John. This year, teaching artists 
from the internationally respected Wolf Trap Institute for 
Early Learning Through the Arts will help teach basic skills to 
children in Head Start classrooms in rural Kentucky near 
Mammoth Cave, this year's featured site, and we will provide 
first-time experiences of high definition technology to 
students in the School of Communication at Western Kentucky 
University.
    We have begun working with other national park units for 
upcoming productions of Face of America. In 2003, we will 
celebrate the 100th anniversary of the Wright Brothers' flight 
with the Dayton Aviation National Historical Park in Ohio, the 
Wright Brothers National Monument in Kitty Hawk, and the 
Tuskegee Airmen National Historical Site in Alabama.
    We recently enjoyed a preview of the excitement of 2004, 
when Hawaiian guitarist Kiola Beamer and his colleagues 
appeared at The Barns of Wolf Trap. Our partners for 2004 is 
the Hawaii Volcanoes National Park and the sister parks on the 
big island of Hawaii.
    As you can see, Wolf Trap is truly the National Park for 
the Performing Arts. We do not intend to use the term, Wolf 
Trap National Park. This, we know, is a category reserved for 
our Nation's major scenic landmarks. We wish only to have our 
name reflect the national scope of our activities, and to be 
known as Wolf Trap National Park for the Performing Arts.
    Thank you once again for this opportunity to speak.
    Senator Cantwell. Thank you.
    Mr. Jones.

   STATEMENT OF DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jones. Senator, my name is Randy Jones. I am Deputy 
Director of the National Park Service. I do have statements on 
behalf of the administration on all the bills before you today. 
I ask they be submitted in their entirety for the record, and 
in the interest of saving the committee's time, I would be 
happy to go right to questions if that is the chair's pleasure.
    [The prepared statements of Mr. Jones follow:]
  Prepared Statement of Durand Jones, Deputy Director, National Park 
      Service, Department of the Interior, on S. 202 and H.R. 2440
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 202 
and H.R. 2440, bills that would rename Wolf Trap Farm Park as ``Wolf 
Trap National Park for the Performing Arts.''
    The Department supports the intent of both bills, but recommends 
the approval of H.R. 2440 as passed by the House of Representatives on 
December 11, 2001.
    A name change from ``Wolf Trap Farm Park'' to ``Wolf Trap National 
Park for the Performing Arts'' has been sought by the Wolf Trap 
Foundation as a way of increasing its visibility as a venue for 
performing arts and a part of the National Park System, which could 
potentially help with fundraising. The Wolf Trap Foundation has been an 
extraordinary partner for the park, bringing a high degree of 
professionalism to both its operational responsibilities and its 
fundraising initiatives, and running excellent educational and artistic 
programs.
    The Department agrees that changing the name of the park to better 
reflect its purpose and status makes sense. ``Wolf Trap Farm'' was the 
name of the property that became Wolf Trap Farm Park, but most people 
who live in the Washington, D.C. area know the park simply as ``Wolf 
Trap.'' The phrase ``for the performing arts'' is already commonly used 
in literature about the park and in advertisements for performances 
there. In addition, most units of the National Park System have the 
word ``national'' in their names. For these reasons, the name ``Wolf 
Trap National Park for the Performing Arts'' is appropriate for this 
site.
    The proposal to rename Wolf Trap Farm Park as ``Wolf Trap National 
Park for the Performing Arts'' was first introduced a few years ago. 
Originally, the National Park Service was concerned that use of the 
name ``National Park'' would place Wolf Trap in a category of a type of 
park unit that implies a large, spectacular natural place that has a 
wide variety of attributes, often including significant historic 
assets. Additionally, we were concerned that the park could be subject 
to laws that apply only to national parks and not other units of the 
National Park System.
    Both S. 202 and H.R. 2440 successfully address these concerns by 
providing that any laws, rules, or regulations that are applicable 
solely to units of the National Park System that are designated as a 
``national park'' shall not apply to Wolf Trap National Park for the 
Performing Arts. Both bills also require the use of the full name 
``Wolf Trap National Park for the Performing Arts,'' at least for 
official purposes. These provisions help make it clear that as a 
``national park for the performing arts,'' Wolf Trap would be in a 
category of its own within the National Park System that would be 
separate and distinct from the system's 56 national parks.
    The reason we recommend approval of H.R. 2440 as passed by the 
House is because it contains a simple requirement that Federal 
employees and Foundation employees use the new name in full in all 
official documents and communications, and that the full name also be 
used on directional signs and official signs and notices. S. 202, by 
contrast, contains a general prohibition on any reference to the park 
other than by the name ``Wolf Trap National Park for the Performing 
Arts,'' which presents legal concerns about the ability of the Federal 
government to enforce this provision with non-Federal entities.
    Finally, the proposed name change would not change Wolf Trap's 
legal status, nor would it alter the way that the park is administered. 
The National Park Service would continue the same level of management 
and would maintain Wolf Trap to the same standards that have always 
been applied at the park.
    Mr. Chairman, that concludes my statement. I would be happy to 
respond to any questions you or other committee members may have 
regarding these bills.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
     Service, Department of the Interior, on H.R. 1456 and S. 1051
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1456 and S. 1051, identical 
bills, both of which would expand the boundary of Booker T. Washington 
National Monument, Franklin County, Virginia.
    The Department gave testimony on H.R. 1456 before the House 
Subcommittee on National Parks, Recreation, and Public Lands on July 
24, 2001. The Department supports both H.R. 1456 and S. 1051. The 
addition would not contribute to the National Park Service (NPS) 
maintenance backlog because the land would be added to the park 
agricultural permit program, and no additional facilities, operating 
funds or staffing will be needed. The current owners have indicated 
that they would be willing to sell the property to the United States. 
If authorized, this acquisition would be subject to NPS servicewide 
priorities and the availability of appropriations.
    This legislation will adjust the boundary of Booker T. Washington 
National Monument to authorize acquiring from willing sellers a parcel 
of approximately 15 acres abutting the northeast boundary of the park. 
The addition and preservation of this 15-acre tract will ensure that 
park visitors may experience an agricultural landscape while inside the 
park, in a region that is subject to extreme development pressure. 
Seven of the 15 acres were part of the original Burrough's farm where 
Booker T. Washington grew up.
    Booker T. Washington National Monument was authorized on April 2, 
1956, to create a ``public national memorial to Booker T. Washington, 
noted Negro educator and apostle of good will . . .'' Booker T. 
Washington National Monument preserves and protects the birth site and 
childhood home of Booker T. Washington while interpreting his life 
experiences and significance in American history as the most powerful 
African American between 1895 and 1915. The park provides a resource 
for public education and a focal point for continuing, discussions 
about the legacy of Booker T. Washington and the evolving context of 
race in American society.
    The park is 224 acres of rolling hills, woodlands, and agricultural 
fields. The primary archeological resources include the Burrough's 
house site, or ``Big House,'' two slave cabin sites with a 1960's 
reconstructed cabin on one of the sites. The agricultural landscape 
plays a critical role in the park's interpretation of Washington's life 
as an enslaved child during the Civil War. Many of his stories and 
experiences are centered on this small tobacco farm. In his 
autobiography, ``Up From Slavery'', Washington frequently refers to the 
``rural'' life and the influences it had upon him.
    A 1998 Viewshed Study conducted as a component of the park's March 
2000 General Management Plan (GMP) identified this land as the most 
critical for addition to the boundary based on its elevation and 
proximity to the birthplace site. The parcel has been on and off the 
market for several years and is currently for sale. The land is 
currently used for open agricultural fields.
    The park is located near the regional recreation area of Smith 
Mountain Lake, which has grown in population and development in the 
last ten years. The park lies a half mile from a commercial crossroads 
called Westlake Corner. This area has become the primary hub of 
services for the Smith Mountain Lake community and continues to grow. 
Acquisition of this parcel would provide the necessary buffer between 
this development and the park so that the visitors will be able to 
experience the area as it was during Booker T. Washington's life.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any question that you or 
members of the subcommittee might have.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
     Service, Department of the Interior, on S. 1061 and H.R. 2238
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1061 and H.R. 2238, bills to 
authorize the Secretary of the Interior to acquire Fern Lake and the 
surrounding watershed in the States of Kentucky and Tennessee for 
addition to Cumberland Gap National Historical Park.
    The Department supports the intent of S. 1061 and H.R. 2238, both 
of which would help protect the magnificent landscape at Cumberland Gap 
National Historical Park, provide additional recreational opportunities 
for visitors, and help assure the continued supply of water for the 
city of Middlesboro, Kentucky. However, the Department recommends 
approval of H.R. 2238 in the form passed by the House of 
Representatives on December 5, 2001, with one technical amendment. We 
believe that H.R. 2238 as passed adequately addresses the Department's 
concerns about potential problems the National Park Service might 
encounter if it acquires a lake that serves as a source of municipal 
water supply.
    S. 1061 and H.R. 2238 would authorize the Secretary of the Interior 
to purchase a 4,500-acre area located in Kentucky and Tennessee 
adjacent to Cumberland Gap National Historical Park that contains Fern 
Lake and its watershed. Existing law allows the National Park Service 
to acquire this area, but not by purchase with appropriated funds. S. 
1061 and H.R. 2238 would allow the National Park Service to acquire the 
area by use of donated or appropriated funds, as well as by donation, 
or by a land exchange. Purchase of the property would be allowed only 
with the consent of the owner.
    The authority to purchase the Fern Lake area is necessary because 
the owner of the 150-acre lake and about 600 acres of land surrounding 
the lake intends to sell the property. The remainder of the 4,500 acres 
of the watershed is not on the market at this time, but if it becomes 
available for purchase in the future, this legislation would provide 
the necessary authority for its acquisition with appropriated funds.
    In addition, both bills would provide for the sale of water from 
Fern Lake for use by the city of Middlesboro, Kentucky and environs. 
They would allow the proceeds from the sale of the water to be used for 
the park. And, they would require the National Park Service to manage 
recreational use of the lake in a manner that is consistent with 
protecting the lake as a source of municipal water supply.
    National Park Service policies generally prohibit the use of water 
resources in parks for entities outside of parks. However, Fern Lake, a 
reservoir constructed in 1893, is currently the sole source of water 
for Middlesboro, and we believe it is appropriate in this case to 
continue to allow Middlesboro to draw water from this source.
    With the authority to purchase Fern Lake, the National Park Service 
would have the flexibility to pursue different ownership options. One 
possibility would be for the National Park Service to acquire Fern 
Lake, in which case the Service would contract with a utility for the 
distribution of the water. Another option would be for the National 
Park Service to acquire only an interest in Fern Lake, such as a 
conservation easement, while another entity, such as the water utility, 
owns and manages the water supply system. If the National Park Service 
acquires the lake, the House-passed bill requires the Secretary of the 
Interior to ensure that the terms and conditions of the contract 
ensures a balance between the protection of park resources and the 
delivery and distribution of sufficient water to meet the demands of 
the city of Middlesboro.
    The only amendment we recommend to H.R. 2238 as passed by the House 
is a change in the map reference number and date in Section 3(b). The 
National Park Service has produced a new map of the Fern Lake watershed 
that corrects an error recently discovered in the version that was used 
during House consideration of the bill. The new map is numbered ``380/80,004A'' and dated ``December, 2001.''
    Cumberland Gap National Historical Park, established by the Act of 
June 11, 1940 (54 State 262; 16 U.S.C. 261 et seq.), commemorates the 
migration of hundreds of thousands of people who moved from the 
populous eastern states west across the Appalachian Mountains by way of 
Cumberland Gap to settle land in Kentucky, Tennessee, and beyond in the 
late 18th and early 19th Centuries. The park currently consists of 
about 20,000 acres in Virginia, Kentucky, and Tennessee, and is 
authorized to include up to 50,000 acres. The park's most visited 
attraction is Pinnacle Overlook, where visitors can see Kentucky, 
Virginia, and Tennessee and gain an appreciation of the landscape that 
played such a critical role in the development of our nation. Fern Lake 
is visible from the overlook.
    The Fern Lake watershed has been a focal point for the Department 
of the Interior for several years. In 1996, after the Office of Surface 
Mining prepared a comprehensive environmental impact statement on 
proposed surface coal mining on the Tennessee side of the watershed, 
the Department declared the area unsuitable for that purpose. In 1997, 
after the State of Kentucky issued a permit to mine the Kentucky 
portion of the watershed, the National Park Service successfully 
appealed the permit. When the owner decided to sell the property two 
years ago, local residents began expressing interest in having the 
property added to the National Park System. The city of Middlesboro 
submitted a proposal to the congressional delegations of Kentucky, 
Tennessee, and Virginia for acquiring Fern Lake for addition to 
Cumberland Gap National Historical Park.
    Having Fern Lake and its watershed under National Park Service 
management would produce many benefits. It would protect the watershed 
from threats of future development and thus help protect for the long 
term the landscape and views the park is known for. It would allow for 
public recreational use of a lake that is currently available only to 
private club members. It would also allow the development of more 
hiking trails in the park. These additional attractions would thus 
increase recreational opportunities in a region that is working hard to 
generate tourism. And, it would ensure that Fern Lake remains a source 
of water for a community that has depended on this water supply for 
many decades.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog, and is concerned about the development and life-
cycle operational costs associated with expansion of parks already 
included in the National Park System. Adding the Fern Lake watershed to 
Cumberland Gap National Historical Park would entail land acquisition 
costs, as well as additional operating and maintenance costs, including 
potential costs associated with dam maintenance. Although the cost of 
maintaining the dam is not known at this time, it is a factor that 
would be considered prior to the National Park Service's acquisition of 
the Fern Lake property. We have no intention of taking over the 
responsibility and cost of operating and maintaining a municipal water 
supply system.
    The owner of the lake and surrounding property (approximately 750 
acres) has offered the property for $5 million, but the actual cost of 
the property will not be known until an appraisal is done and a 
determination is made about whether or not to acquire the water supply. 
If the National Park Service acquires Fern Lake, some revenue would 
accrue to the park from the sale of the water. According to information 
from the city of Middlesboro, the current owner receives approximately 
$85,000 annually from the sale of water from Fern Lake. Any revenue, 
however, would likely be offset by increased operational costs, so this 
could result in a net cost to the National Park Service.
    In addition, we anticipate some additional operations and 
maintenance costs associated with making the newly acquired land 
available for public use. Establishing trails and building or 
remodeling facilities around the lake would entail one-time development 
costs. There would be recurring annual costs associated with staff 
needed for resource protection and visitor services in the new area. We 
do not have an estimate of those costs at this time, but we note that 
if the full 4,500 acres of the watershed is acquired, it would increase 
the size of the park by about 22 percent. The current annual base 
funding for Cumberland Gap National Historical Park is S2.3 million.
    In summary, the Department supports H.R. 2238 as passed by the 
House as a means to help assure protection for the natural and cultural 
resources of Cumberland Gap National Historical Park and to provide 
important benefits for the surrounding communities, through the 
acquisition of land from willing sellers.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 1649
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1649, a bill to amend the Omnibus 
Parks and Public Lands Management Act of 1996 to increase the 
authorization of appropriations for the Vancouver National Historic 
Reserve and for the preservation of Vancouver Barracks.
    The Department recognizes and appreciates the efforts of our 
partners to cooperatively administer the Vancouver National Historic 
Reserve. This is a partnership that has worked well, and we look 
forward to continuing to work with the City of Vancouver, the State of 
Washington, and the Department of the Army to achieve the goals 
outlined in the cooperative management plan for the Reserve. However, 
in light of the Department's commitment to supporting the President's 
initiative to eliminate the deferred maintenance backlog in our 
national parks, we cannot support diverting limited funds away from the 
Service's own needs. We believe that funds that are appropriated to the 
National Park Service are more appropriately directed to reducing the 
long list of necessary but deferred construction projects that have 
been identified in our national parks.
    The Vancouver area of southwestern Washington was an important site 
of 19th-century social, economic, political, and military activity in 
the Pacific Northwest. In recognition of its historical significance, 
Congress in 1948 designated a portion of the area--Fort Vancouver--as a 
National Monument, and in 1961 Fort Vancouver became a National 
Historic Site. Over the next several decades, continuing efforts to 
preserve the area's other historic sites prompted Congress, in 1990, to 
pass legislation authorizing the creation of a Vancouver Historical 
Study Commission. Subsequently, the commission recommended the 
establishment of a reserve as the best management strategy for 
protection of the resources within the study area, and in 1996, 
Congress passed legislation that established the Vancouver National 
Historic Reserve. The Reserve itself is not a unit of the National Park 
System, although the Fort Vancouver National Historic Site component is 
part of the System.
    The Reserve encompasses 366 acres along the Columbia River within 
the City of Vancouver, Washington, and includes a particularly rich 
collection of cultural resources, including Fort Vancouver National 
Historic Site, Officers Row, Vancouver Barracks, Pearson Air Museum and 
Air Field, portions of the Columbia River waterfront, and the Water 
Resources Education Center. In this nationally significant historic 
setting, the Reserve celebrates well over 200 years of history 
including the use of the area by Native Americans; the creation of the 
first multi-cultural village of its kind in the Pacific; the Hudson Bay 
Company's Fort Vancouver, which was one of the largest such British 
enterprises; and the growth of the U.S. Army in the Pacific Northwest 
as reflected in the historic Officers Row and Vancouver Barracks.
    The law that established the Reserve directed the preparation of a 
general management plan to be developed by a partnership comprised of 
the National Park Service, the Historic Preservation Office of the 
State of Washington, the Department of the Army, and the City of 
Vancouver, Washington. The plan, completed in early 2000 and approved 
by the Secretary of the Interior, envisions an active public/private 
partnership in managing the shared assets of the Reserve. The Reserve 
partners, while maintaining full authority and management 
responsibilities for their individual areas consistent with applicable 
laws, work cooperatively on all matters relating to the Reserve. 
Additional financial support comes from the privately based nonprofit 
Vancouver National Historic Reserve Trust. The cornerstones of the 15-
year management plan are preservation, education, and public use.
    The plan, however, is not a budget document. While it identified 
estimated costs for recommended actions, it did not commit any of the 
agencies or other partners to specific funding requirements. Signature 
by the partners or the Secretaries did not commit the Department of the 
Interior or the Army to any funding requirements outside of agency 
budgets as approved by Congress.
    The law that established the Reserve authorized the appropriation 
of $400,000 annually for operational costs, and a total of $5 million 
for development costs. These funds have been provided in the National 
Park Service budgets for fiscal years 1998 through 2002 in the 
construction and statutory aid accounts.
    The cooperative management plan for the Reserve provided a summary 
of development costs estimated at approximately $85 million (in 1998 
dollars). The plan contemplates that the costs will be shared by the 
federal government, the state, the city, nonprofit groups and 
organizations, and private investors, corporations, and businesses. The 
federal share could be allocated from the U.S. Army, the U.S. Army 
Reserve, the Department of Defense, or the Department of the Interior.
    The Vancouver National Historic Reserve has benefited greatly from 
the contributions made by our partners and other donors, who have 
already provided over $19 million for a wide variety of projects, and 
plan to provide approximately $20 million more for projects that have 
already been identified.
    We would like to emphasize that we are committed to working with 
our partners in the Vancouver National Historic Reserve to find 
appropriate ways to meet the goals outlined in the cooperative 
management plan. We encourage our partners in the Reserve to continue 
to seek funding and other solutions for the preservation and protection 
of its resources through grants and other programs administered by the 
Service, the Department, and other federal agencies.
    This concludes my testimony. I am glad to answer any questions that 
you or members of the Subcommittee may have.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 1894
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1894, to direct the Secretary 
of the Interior to conduct a special resource study to determine the 
national significance of the Miami Circle site in the State of Florida 
as well as the suitability and feasibility of its inclusion in the 
National Park System as part of Biscayne National Park.
    The Department supports this bill, with an amendment. However, the 
Department did not request additional funding for this study in Fiscal 
Year 2003. We believe that any funding requested should be directed 
towards completing previously authorized studies. Presently, there are 
40 studies pending, of which we hope to transmit 15 to Congress by the 
end of 2002. One concern with authorizing additional studies is that it 
raises public expectations for establishing new park units, national 
trails, wild and scenic rivers, or heritage areas. We cannot afford to 
continue adding so many new funding requirements at the same time that 
we are trying to work down the deferred maintenance backlog at existing 
parks. To estimate these potential new funding requirements, the 
Administration will identify in each study all of the costs to 
establish, operate, and maintain the proposed site.
    The Miami Circle is an archeological site in downtown Miami that 
was discovered in 1998 during the pre-construction survey for a 
condominium building. The site is located at the mouth of the Miami 
River, about seven miles from the northern boundary of Biscayne 
National Park. It consists of a circle measuring 38 feet in diameter 
cut into the limestone bedrock with approximately 20 irregular basins, 
several hundred smaller ``postholes,'' a carving resembling an eye, and 
several possible astronomical alignments. Also present are several 
offerings, including two axes manufactured out of basaltic stone (not 
native to Florida), shark and sea turtle skeletons, and the skull of a 
bottle-nose dolphin, which bolsters the theory that this was a 
ceremonial site. This is the first bottlenose dolphin uncovered at an 
excavation in North America outside the Pacific Northwest.
    A site survey by the Florida Bureau of Archeological Research 
completed in November, 1999 confirmed that the Miami Circle is a 
Tequesta Indian site approximately 2,000 years old. The Tequesta 
Indians were one of the earliest groups to establish permanent villages 
in southeast Florida. They developed a culture and subsistence that was 
highly successful. By using the rich marine and coastal environment 
along Biscayne Bay, the Tequesta developed a complex social chiefdom 
without an agricultural base. The Miami Circle site might have served 
as the center of religious, trading and political activity for this 
culture.
    The archeological survey also determined that the Miami Circle is 
part of a larger complex of prehistoric archeological features on the 
2.2 acre parcel, and part of a Tequesta village that occupied both 
sides of the Miami River. The Miami Circle is now often referred to as 
the Brickell Point Project to acknowledge the archeological value of 
the entire 2.2-acre site, not just the circle.
    Once this site was discovered, the State of Florida, Miami-Dade 
County, and many interested organizations and individuals combined 
efforts to prevent the Miami Circle property from being developed. In 
November, 1999, the State of Florida purchased the site for $26.7 
million with funding provided by the state's Conservation and 
Recreation Lands program, Miami-Dade County's Safe Neighborhood Parks 
Bond funds, private contributions, and a loan from the Trust for Public 
Land. The Florida State Division of Historical Resources has been 
working closely with the Division of State Lands and Miami-Dade County 
to develop a management plan for the property.
    However, the question of how the site can best be managed over the 
long term, and by whom, has not yet been resolved. Interest in the 
possibility of National Park Service management of the site spurred the 
introduction of feasibility study legislation similar to S. 1894 in the 
106th Congress in both the Senate and the House of Representatives. 
Florida Governor Jeb Bush supported the legislation. The Senate passed 
the legislation in October, 1999, but the House of Representatives did 
not vote on it.
    S. 1894 directs the Secretary of the Interior to conduct a special 
resource study to determine whether the Miami Circle site is nationally 
significant as well as suitable and feasible for addition to the 
National Park System and, specifically, for addition to Biscayne 
National Park. As is standard for special resource studies, it would 
examine not only the option of adding the site to the National Park 
System but also other alternatives for protecting, managing, and 
interpreting the site.
    Although Biscayne National Park was established primarily for the 
protection of its wealth of natural resources, the park is fortunate to 
have seven well-preserved Tequesta sites within its boundaries, all of 
which may be eligible for the National Register of Historic Places. The 
addition of the Miami Circle to Biscayne would likely enhance the 
park's ability to interpret the Tequesta culture. And, it would give 
the park a presence in Miami, which is something that numerous 
community members have indicated support for in the park's general 
management planning process. However, there may be other alternatives 
which could effectively achieve the protection of this resource, so it 
would be prudent to study other management possibilities as well.
    The legislation is consistent with the requirements for special 
resource studies under Title III of the National Park System Omnibus 
Management Act of 1998 (Public Law 105-391), except for the time 
allotted for completion of the study. S. 1894 requires the Secretary of 
the Interior to conduct the study not later than one year after the 
date funds are made available, and to submit the study to the 
appropriate committees of Congress within 30 days of completion of the 
study. Public Law 105-391 provides for studies to be completed within 
three fiscal years after funds are first made available for the study. 
Although it is possible that the study could be completed in fewer than 
three years, we recommend amending S. 1894 to provide for three years 
to complete the study, consistent with Public Law 105-391, to ensure 
that there is a sufficient amount of time for public involvement and 
for thorough consideration of the various alternatives for management 
of the site.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to questions from you or other committee members.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
           Service, Department of the Interior, on H.R. 2234
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2234. This bill would revise 
the boundary of Tumacacori National Historical Park in the State of 
Arizona.
    The Department supports H.R. 2234, as passed by the House to 
correct the name and number of the map reference in the bill. On 
November 13, 2001 the Department testified in support of H.R. 2234 
before the Subcommittee on National Parks, Recreation, and Public 
Lands, of the House Committee on Resources, suggesting one technical 
amendment relating to the name and number of the map reference in the 
bill which was adopted by the subcommittee at the markup held on 
November 15th.
    The legislation would allow the park to fulfill the original 
purposes for which it was established, create more opportunities to 
expand educational and recreational partnerships within the new 
boundary and beyond, and has received the support of the surrounding 
community. Expanding the boundary of Tumacacori NHP would fulfill one 
of the goals identified in the park's approved General Management Plan, 
and the owners of the lands proposed for addition have expressed a 
willingness to sell.
    H.R. 2234 would amend Public Law 101-344, the Act authorizing the 
establishment of Tumacacori National Historical Park, and expand the 
boundary of the park by adding two separate parcels, which are adjacent 
to the original Tumacacori unit of the park and total approximately 310 
acres. The legislation also defines the purpose for adding these lands.
    Tumacacori National Historical Park is a 45-acre unit of the 
National Park System because the mission is an outstanding example of 
18th century Spanish Colonial architecture and served as the source and 
center of a community and a way of life that survived for centuries in 
a harsh and demanding environment. To tell that story means more than 
protecting a building. It means protecting the resources that nourished 
and maintained it--its orchards, crops, and fields. The proposed 
additions to the boundary contain these resources.
    Tumacacori is one of a chain of missions established by the Spanish 
in the Pimeria Alta (land of the Upper Pima Indians) from Sonora, 
Mexico to San Xavier del Bac near Tucson. Father Kino established 
Mission San Cayetano de Tumacacori approximately forty miles south of 
present day Tucson in 1691. At its height, the mission land grant 
included nearly 6,000 acres.
    Theodore Roosevelt set aside 9 acres immediately around the church 
as Tumacacori National Monument in 1908. The boundary of the monument 
was revised with the addition of 6 acres in 1978. In 1990 the missions 
of Guevavi (8 acres) and Calabazas (22 acres), to the south along the 
Santa Cruz River, were added and the park redesignated a National 
Historical Park.
    The 18th and 19th century Tumacacori Mission encompassed not only a 
church and its associated compound, but also homes for the native 
people. The mission supported itself by what it could grow and graze on 
its lands along the Santa Cruz River. Vegetables and fruits grew in a 
large (5 acre) walled orchard and garden irrigated by the acequia 
(irrigation ditch). Eventually homesteaders settled mission lands, and 
by the time Tumacacori National Monument was set aside all of the 
former mission lands were in private ownership. Today the mission 
stands divorced from its land and people. One quarter of the historic 
orchard and its still visible wall remains. The majority of the 
acequia, mission farmland and a section of the Santa Cruz River all lie 
on adjacent private land.
    The park's General Management Plan (1996) identified the need to 
acquire additional lands to obtain the rest of the mission orchard. 
Acquisition of the entire historic remains of the orchard, former 
mission farmlands and the acequia would allow the park to recreate a 
19th century cultural landscape. Future visitors would understand that 
the mission was not just a church but a complete self-sustaining 
community. The nearby Santa Cruz River, a desert riparian area, is a 
vital educational tool to understand how the native and mission 
communities were able to develop and thrive in the desert. In addition, 
expansion of the park boundary would allow the National Park Service to 
enhance the recreational experience of visitors along the Juan Bautista 
de Anza National Historic Trail between Tubac and Tumacacori as well as 
partner with communities all along the Santa Cruz River to further 
develop the recreational and educational values of the trail.
    The two parcels of private land proposed to be included in the 
Tumacacori NHP boundary are a 90-acre parcel to the south and east and 
a 220-acre parcel to the north and east. The owners have expressed 
their interest in selling to the National Park Service. Acquisition 
costs for the two parcels are estimated at $2,000,000 to $2,500,000, 
although actual costs would not be known until appraisals on the land 
are completed. A non-profit group may be willing to purchase the 
properties and hold them for a short period of time until the National 
Park Service is able to designate land acquisition funding.
    Since the National Park Service intends to return the proposed 
additional lands to a 19th Century cultural landscape there will be 
little additional park operational funding needed. Park staff would be 
able to provide a basic level of resource protection to lands that are 
acquired through existing financial resources. In the future, funding 
will be needed to develop visitor use trails as well as to rehabilitate 
and replant the mission orchard as called for in the General Management 
Plan. No other visitor facilities will be built in the new areas. An 
additional 1.5 FTE would be needed in personnel for the increased 
maintenance responsibilities. Costs to accomplish these projects would 
require one-time funding of approximately $250,000 for visitor trail, 
waysides and bridge construction and $100,000 to reconstruct and 
replant the orchard. A $78,000 base increase for maintenance staff 
would be needed.
    H.R. 2234 has generated a cross-section of support. The county 
supervisor on the Santa Cruz County Board of Supervisors, whose 
district includes the park, has expressed support. Local community 
groups that have expressed support for the legislation include the 
Friends of the Santa Cruz River, the Anza Trail Coalition and the Tubac 
Historical Society.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.

    Senator Cantwell. Thank you, Mr. Jones, we appreciate that.
    Let me ask you about the Vancouver Barracks project. 
Obviously, the Park Service has been very involved with this. I 
think there are documents that you have been involved in on a 
cooperative management plan basically stating that actually the 
National Park Service is working closely with the city and 
others to protect the plan for Fort Vancouver and is basically 
leading the site in the national historic reserve.
    I am a little concerned why there is the Department's 
commitment to the efforts in the partners of the preserve. I am 
interested to know how the service plans to fulfill that role 
as a lead partner in making improvements in resources to the 
site.
    Mr. Jones. We have actually some wonderful partners within 
the reserve and, of course, the reserve itself is not a unit of 
the National Park System. It is a partnership area, and we feel 
that what we need to do is engage in a serious dialogue with 
all the partners to identify alternate scenarios for obtaining 
the funds to accomplish the purposes and the intent of the 
plans, and however, that the National Park Service should not 
bear the full costs of that particular operation.
    Senator Cantwell. What about the specifics of the 
acquisition of the barracks? What is in your budget plan for 
that?
    Mr. Jones. I am afraid I do not have the details at this 
point, Senator. I know the appropriations that have existed to 
date actually have exceeded the existing authorized level, so 
looking at the ceiling is something that does need to be done, 
but then the question is, to what extent that ceiling is looked 
at.
    Senator Cantwell. Why don't we submit some questions, then, 
about that, and you can answer them as part of the record, but 
obviously we are looking for a commitment that we will be 
working together on this.
    Mr. Jones. Oh, that definitely we are happy to give you, 
because it is an important resource. We share the concerns that 
these resources need to be protected. The real question is, 
how, and what is the best mechanism to achieve that protection 
and, therefore, who should also come up with the funds to do 
it.
    Senator Cantwell. Thank you. Senator Thomas, do you have 
questions?
    Senator Thomas. I do have a couple. Mr. Jones, when are you 
going to have Yellowstone Park in your program?
    [Laughter.]
    Mr. Jones. Well, the good news is, I plan on visiting 
Yellowstone Park in October, so I guess that is my first site 
visit there.
    Senator Thomas. Well, I am sure you will bring something 
back with you.
    Let me ask a few questions about Fern Lake. What will be 
the role of the Park Service in delivering water?
    Ms. Bowling. As far as I know, the water will be delivered 
and sold untreated, so the utility will be responsible for 
treating the water, and the Park Service will not have to bear 
that responsibility, so they will not get into the business of 
being a utility.
    Senator Thomas. It does not preclude that in this bill. I 
understand the House bill is more specific.
    Ms. Bowling. Exactly. The House bill does state that the 
Secretary shall enter into a contract to sell untreated water 
from the lake to the utility that delivers and distributes 
water to the city of Middlesboro.
    Senator Thomas. Are there facilities that need to be made 
to collect the water, or is it simply running naturally into a 
stream to be collected, or what? What is the situation?
    Ms. Bowling. It is set up already. The utility has been set 
up in working order for, I am not sure exactly how many years, 
but it is already functioning utility.
    Senator Thomas. Just at random, why should the park 
purchase the land? Why doesn't your county or your State or 
your city take control of the land and leave it open space?
    Ms. Bowling. From the way that I understood it, the city 
did not have the funds to purchase it, and because it butted up 
against a national park it seemed like it would be a natural 
for the park to acquire it, because it fit into the scope of 
the national park, and it also encompassed the view from 
Pinnacle Overlook, and we wanted to make sure that the park was 
untouched, and the viewshed was protected.
    Senator Thomas. Mostly, it is a question of money.
    Ms. Bowling. Money as well.
    Senator Thomas. Can they have recreational activities in 
this area as well as the water program?
    Ms. Bowling. They could, if it is ecologically sound, and 
they do already function as a private fishing and boating lake, 
no motors, and they do fairly well.
    Senator Thomas. Randy, what is the position of the park on 
this?
    Mr. Jones. Once authorized to take a look at acquisition of 
Fern Lake we have to take a very careful look, and we are not 
really ready to commit today the full extent of what we should 
acquire at the lake itself.
    There are a variety of options, ranging from acquiring 
everything to not acquiring the water rights, acquiring the 
utility system and leaving that for the local governments, and 
those are some things we need to look at, and look at very 
closely, because we frankly are not interested in the National 
Park Service becoming a local utility district, but we do share 
a very strong vision that the lake and the environs need to be 
protected, and they are integral to the park itself.
    Senator Thomas. I agree with that. As many demands as there 
are for park resources, we have to be very certain that how we 
spend it contributes to the mission of the Park Service and, of 
course, the gateway communities are also important. But the 
economy of the community is not the principal purpose of the 
park, even though it has some impact. I understand that.
    On the Vancouver issue, I understand the cost of upgrading 
and changing the barracks is a $40-million project.
    Mr. Jones. There are several projects that were identified 
in the master plan that was developed in cooperation with our 
partners. The barracks is one of those projects. It is about to 
be transferred from the Army Reserve, is my understanding, and 
we are concerned about having the National Park Service, 
especially since the reserve portion is not actually a unit of 
the Park System, having us picking up all of the costs of that, 
which is why we need to talk to our partners to develop a good 
strategy that might include fundraising, and fundraising from 
other sources and other agencies.
    Senator Thomas. The proposal, I understand, is for $20 
million, and the total cost will be $40 million?
    Mr. Jones. Yes, sir.
    Senator Thomas. I see. What is the role of the Park 
Service--who else is involved as partners in this operation?
    Mr. Jones. The Senator actually knows better than I do, 
since I have not personally visited the site, but certainly the 
city of Vancouver is a player, the U.S. Army, because of the 
Army Reserve involvement has been a player, there are some 
local organizations that have a great deal of interest in the 
site, so there are a variety of partners, and there have been a 
variety of funding sources that have been tapped in the past.
    Senator Thomas. What is the mission and the role of the 
Park Service, then?
    Mr. Jones. We do have the national historic site, which is 
a unit of the National Park System that we do operate as a full 
unit.
    Senator Thomas. What is that? That is not the barracks, 
though.
    Mr. Jones. No. Then there is the Vancouver Reserve which is 
adjacent, and that is just the expanded area. There are lands 
that are owned by other entities, and so our role as a partner, 
because it is part of the overall theme of the site----
    Senator Thomas. What is the park site?
    Mr. Jones. Fort Vancouver National Historic Site.
    Senator Thomas. Historic Site?
    Mr. Jones. Yes, sir.
    Senator Thomas. I got you. So if this $20 million came out, 
what would that mean to the historic site?
    Mr. Jones. The resources of the reserve directly relate to 
the historic site itself, but as I said are not actually part 
of the Park System managed area.
    Senator Cantwell. I think, Mr. Jones, maybe in the follow-
up questions and answers, because we do have a vote on, and I 
think we are probably under the 10-minute mark, we could give a 
little more detail for the committee about the national 
historic reserve, and the fact that I think I made in some of 
my opening comments about the historic nature of this 
particular area to our European-American development as a fur-
trading and commerce area for our country prior to Lewis and 
Clark's expedition.
    It is a great centerpiece of Lewis and Clark's expedition. 
I am sure that is what originally got the national historic 
reserve funding as part of the National Park Service, but there 
is a variety of partners and a variety of details, and 
obviously not a lot of national parks probably have the U.S. 
Army involved in those parks. When you think about the natural 
beauty of the area, it does not look dissimilar to what we are 
talking about here in Cumberland Gap, a very beautiful part of 
the country, and really adjacent to another national scenic 
area, so the area itself is bordered by some other reserves as 
well, but we will get more details on that for the committee.
    Mr. Jones. Senator, we will be very happy to work with you 
and the committee to seek resolution.
    Senator Cantwell. Thank you. Well, in the interest of 
time--and I want to thank the ranking member, Senator Thomas, 
for being here so that we could have this hearing. In the 
interest of time, since we have a vote on and we have heard 
from the panelists, I think maybe the best thing to do is to 
keep the record open for 10 days or so. That way, the questions 
can be submitted and information back from the panelists can be 
available for members.
    If that is acceptable, then this Subcommittee on National 
Parks is adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
